           U.S. Department of
                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Notification of Audit of Federal           Date:    October 13, 2004
           Highway Administration’s Oversight of State
           Processes for Implementing Value Engineering
           Project No. 05M3001M000

  From:    Debra Ritt                                           Reply to
                                                                Attn. of:   JA-40
           Assistant Inspector General
            for Surface and Maritime Programs

    To:    Federal Highway Administrator

           The Office of Inspector General is initiating an audit of the Federal Highway
           Administration (FHWA) oversight of value engineering (VE) in the Federal-aid
           highway program.

           The objectives of this audit are to determine whether FHWA oversight and
           management is adequate to ensure that (1) VE studies are performed in accordance
           with established criteria, and (2) VE recommendations are timely and
           implemented to the maximum extent possible, permitting potential savings to be
           achieved.

           We will conduct the audit at FHWA Headquarters, division offices, and state
           highway agencies that will be determined during the audit. We plan to begin the
           audit immediately, and will contact your audit liaison to schedule a formal
           entrance conference. The Program Director for this audit is Michael Ralph, and
           the Project Manager is Reginald Robinson. If you have any questions or require
           additional information, please contact me at (202) 366-5630 or Michael Ralph at
           (202)-366-1515.

                                                  #

           cc: Audit Liaison, OST
               Audit Liaison, FHWA
